                                   SOCIAL SECURITY

MEMORANDUM

Date:   March 30, 2005                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Effects of Staffing on Hearing Office Performance (A-12-04-14098)



        The attached final report presents the results of our audit. Our objective was to
        examine how staffing affects hearing office performance in the areas of productivity and
        timeliness.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      THE EFFECTS OF STAFFING
        ON HEARING OFFICE
           PERFORMANCE

  MARCH 2005        A-12-04-14098




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objective was to examine how staffing affects hearing office performance in the
areas of productivity and timeliness.

BACKGROUND
Within the Social Security Administration (SSA), the Office of Hearings and Appeals
(OHA) is responsible for holding hearings and making decisions on appealed
determinations involving retirement, survivors, disability and Supplemental Security
Income. At the end of Fiscal Year (FY) 2004, OHA had 6,475 full-time permanent (FTP)
employees in its 140 hearing offices, which is approximately 10 percent of SSA’s
workforce.

OHA’s key criteria for analyzing hearing office performance are (1) hearing office
productivity, as measured by dispositions per day per Administrative Law Judge (ALJ)
(disposition rate) and (2) hearing office average processing time (timeliness). Since
FY 1999, OHA has improved its productivity; however, timeliness has worsened, from
316 days to 391 days in FY 2004.

RESULTS OF REVIEW

Over the last 5 years hearing office receipts have outpaced hearing office dispositions,
resulting in a large increase in pending claims and worsening timeliness. While total
dispositions have not surpassed the FY 1999 level, OHA’s hearing office productivity
levels have improved in terms of its disposition rate. We acknowledge that many
factors affect hearing office performance. Some of the factors are under OHA’s control,
such as the allocation of staff, and other factors are not, including increasing requests
for hearings and restrictions on the hiring of new ALJs.

OHA might improve its productivity if it based its staffing allocations on hearing office
staffing ratios, defined as the number of support staff per ALJ. Although the national
staffing ratio has not varied greatly over the past 5 years, the staffing ratio among the
various hearing offices shows much greater variance. Our review of FY 2003 data
showed that while the national staff ratio was 4.7 support staff to 1 ALJ, staffing ratios at
the hearing offices ranged from a low of 3 to 1 to a high of 18.5 to 1. Furthermore, our
analysis revealed that hearing office staffing ratios may be a good indicator of hearing
office performance, especially in hearing offices with low staffing ratios. For example, of
the 76 hearing offices with staffing ratios less than the FY 2003 national staffing ratio,
63 percent had disposition rates worse than the FY 2003 national disposition rate. If
SSA would define performance standards for hearing office employees, SSA could
determine an ideal staffing ratio for OHA’s hearing offices. For example, through its




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                      i
Unified Measurement System initiative, SSA has begun to track the work expended by
its operating components on ongoing workloads, tasks and projects.

We also examined OHA’s hiring of file assembly contractors who were being used to
augment staffing shortages in hearing offices. Despite filling this critical need in hearing
offices, OHA has not measured the effect that file assembly contractors have had on
staffing ratios, productivity and timeliness in hearing offices that used these contractors.
We believe OHA should analyze these trends when deciding which hearing offices will
receive file assembly assistance.

CONCLUSION AND RECOMMENDATIONS
To improve overall staffing at the hearing offices and assist OHA in meeting its
performance goals, we recommend SSA:

•   Consider developing an ideal national staffing ratio to assist OHA in allocating staff
    to hearing offices; and

•   Consider prioritizing file assembly assistance for those hearing offices that have
    staffing ratios below the national staffing ratio.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                        ii
                                                                            Table of Contents
                                                                                                                        Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Hearing Office Dispositions, Timeliness and Staffing ..............................................2

     •    Trends in Staffing, Productivity and Timeliness ............................................3

     •    Hearing Office Staffing Ratios ......................................................................4

Contract File Assembly and the Effect on Dispositions, Timeliness and
Staffing ....................................................................................................................7

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Hearing Office Organization Chart and Position Descriptions

APPENDIX D – Other Initiatives for Improving Hearing Workloads

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)
                                                                            Introduction
OBJECTIVE
Our objective was to examine how staffing affects hearing office performance in the
areas of productivity and timeliness.

BACKGROUND
Within the Social Security Administration (SSA), the Office of Hearings and Appeals
(OHA) is responsible for holding hearings and making decisions on appealed
determinations involving retirement, survivors, disability and Supplemental Security
Income. At the end of Fiscal Year (FY) 2004, OHA had 6,475 full-time permanent (FTP)
employees in its 140 hearing offices, which is approximately 10 percent of SSA’s
workforce.

Each hearing office is comprised of administrative law judges (ALJ), management and
support staff. An ALJ’s principal responsibilities are to hold a full and fair hearing and
issue a legally sufficient and defensible decision. Hearing office management’s main
duty is to administer the workload by supervising, planning, organizing, directing and
controlling operating activities. Support staff acknowledges receipt of requests for
hearings, follows established controls for the orderly processing of cases, prepares and
maintains hearing office files, maintains a control system for all cases in the hearing
office, and writes decisions.1

According to OHA executives, hearing office dispositions2 per day per ALJ (disposition
rate) and hearing office average processing time3 (timeliness) are OHA’s key criteria for
analyzing hearing office performance.4 Since FY 1999, OHA has improved its
disposition rate. However, timeliness has worsened. In FY 1999, OHA’s disposition
rate was 2.03 dispositions per day per ALJ, while in FY 2004 the disposition rate
improved to 2.40. During the same time period, OHA’s average processing time
worsened from 316 days to 391 days.



1
  For a hearing office organization chart and more discussion of the duties for hearing office personnel,
see Appendix C.
2
 Dispositions are defined as the number of hearing requests processed, including favorable and
unfavorable decisions issued, as well as requests that are dismissed.
3
  Processing time is defined as the average elapsed time, from the hearing request date until the date of
the decision, of all hearings level cases processed during all months of the fiscal year.
4
 For a discussion of the best practices used by OHA’s highest producing hearing offices, see SSA Office
of the Inspector General report, Best Practices in Highest Producing Hearing Offices (A-12-04-14020),
August 2004.



The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                   1
                                                                     Results of Review
Over the last 5 years, hearing office receipts have outpaced hearing office dispositions
every year, resulting in a large increase in pending claims and worsening timeliness.
Nonetheless, OHA’s hearing office productivity levels have actually increased in terms
of its disposition rate, though total dispositions have not surpassed FY 1999 levels. Our
analysis revealed that hearing office staffing ratios may be a good indicator of hearing
office performance, especially in hearing offices with low staffing ratios. OHA might
improve its productivity if it considered staffing ratios when making staffing allocations to
hearing offices. Furthermore, OHA could be aided in its staffing decisions by
determining an ideal staffing ratio for its hearing offices. We also found that despite the
assembly contractors filling a critical need in hearing offices, OHA has not measured the
effect that file assembly contractors have had on staffing ratios, dispositions and
timeliness in hearing offices that used file assembly contractors.

HEARING OFFICE DISPOSITIONS, TIMELINESS, AND STAFFING
Over the last 5 years hearing office receipts5 have outpaced total dispositions every
year resulting in a large increase in pending claims (up nearly 104 percent) and a
worsening of average processing time (up nearly 24 percent). See Figure 1 for our
trend analysis.6 In an attempt to improve productivity and timeliness, SSA implemented
a number of initiatives (see Appendix D). We discuss the trends in hearing office
staffing levels, productivity and timeliness in the section that follows.

                                         Figure 1: Six Year Trend in Hearing Office
                                                    Workload Indicators
                                 110%
                                 95%
                                 80%
             Percentage Change




                                 65%
                                                                                  Pending
                                 50%
                                 35%
                                                                                  Receipts
                                 20%
                                  5%                                              Dispositions
                                 -10%
                                        Base   2000   2001   2002   2003   2004
                                 -25%                                             Average Processing
                                        Year
                                 -40%                                             Time
                                        1999          Fiscal Year


5
 Since Calendar Year 1999, SSA has experienced an increase in applications for disability benefits every
year. The Social Security Advisory Board predicted that the growth in SSA’s disability program will
accelerate due to the baby boomers reaching their disability prone years. See the Board’s report,
Charting the Future of Social Security’s Disability Programs: The Need for Fundamental Change,
January 2001.
6
    Based on SSA’s Performance and Accountability Reports and OHA’s Key Workload Indicator Reports.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                  2
TRENDS IN STAFFING, PRODUCTIVITY AND TIMELINESS

The number of hearing office employees7 on duty has increased over 10 percent since
FY 1999 (see Figure 2). The number of ALJs on duty at the end of FY 2004 was up
more than 2 percent from FY 1999 levels. With increased staffing in its hearing offices,
OHA’s national disposition rate improved, increasing by over 18 percent since
FY 1999. OHA achieved a record disposition rate of 2.40 in FY 2004. Even so, the
total number of dispositions has not surpassed FY 1999 totals (see Figure 1). The
disposition rate is a productivity measure that is under the control of OHA since the
disposition rate depends upon hearing office employees working together efficiently and
effectively in entering claims into the system, preparing claims for hearings, conducting
the hearings, writing the decisions and mailing the decisions to the claimant (see
Appendix C for hearing office organization chart and hearing office position
descriptions).


                             Figure 2: Changes in Staffing, Productivity and Timeliness
                           25%

                           20%
       Percentage Change




                           15%
                                                                               FTP All Hearing
                           10%                                                 Office Employees
                            5%                                                 FTP Administrative
                            0%
                                                                               Law Judges

                           -5%    Base   2000   2001   2002   2003   2004      Disposition Rate
                           -10%
                                  Year
                                  1999                                         Average
                           -15%
                                                Fiscal Year                    Processing Time



However, even with increased staffing levels, average processing time worsened.
Average processing time increased by over 24 percent since FY 1999, increasing from
316 days during FY 1999 to 391 days during FY 2004. Average processing time has
been impacted by many factors.8 Some of the factors influencing timeliness that are not
under OHA’s control are the number of new hearing receipts (close to 21 percent higher
than FY 1999 levels, see Figure 1) and restrictions on ALJ hiring. With the exception of




7
    Throughout this report employee counts will be shown as FTP equivalents.
8
 According to OHA executives, some other factors that affect hearing office performance include: union
activity, overtime funding, and the hearing office’s implementation of OHA’s Short-Term Initiatives. A
discussion of OHA initiatives is found in Appendix D. We acknowledge that other factors besides staffing
affect hearing office performance. However, those factors were beyond the scope of this audit.



The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                 3
a 1-time hiring of 126 ALJs in early FY 2002, OHA was precluded from hiring ALJs due
to the Azdell litigation.9 However, in FY 2004, OPM reactivated the ALJ register, and
OHA was able to hire 103 ALJs in the spring and summer of FY 2004. One major
factor under OHA’s control that may have negatively impacted timeliness was the
FY 2000 implementation of the Hearing Process Improvement (HPI) initiative.10

HEARING OFFICE STAFFING RATIOS

OHA’s staffing goal is to have adequate staffing in each hearing office to ensure an
even workload. If a hearing office does not have the right mix and an adequate number
of support staff for each ALJ, all of the pre-hearing and post-hearing work may not be
accomplished efficiently and the hearing office’s productivity and timeliness could suffer.
OHA calculates support staff to ALJ ratio (staffing ratio)11 for each hearing office during
the budget planning cycle, and when ALJ hiring occurs. Using OHA’s staffing reports,
we calculated OHA’s national staffing ratio at the end of FYs 1999 through 2004 (see
Table 1), and found that it has fluctuated from a low of 4.1 to 1 to a high of 4.8 to 1, with
an average national staffing ratio of 4.5 to 1. The main factors that affected the national
support staffing ratio were OPM’s restriction on hiring ALJs and OHA hiring additional
support staff.




9
 In 1997, two applicants for ALJ positions filed an appeal with the Merit Systems Protection Board
(MSPB). This case, Azdell v. Office of Personnel Management (OPM), challenged the veterans’
preference formula that OPM was using to score the ALJ examination. In April 1999, the MSPB issued
an initial decision finding that the scoring system violated the Veterans Preference Act. Beginning in April
1999, SSA was not able to hire ALJs directly. This restriction was lifted in 2004.
10
  Government Accountability Office (GAO), Social Security Disability – Disappointing Results From
SSA’s Efforts to Improve the Disability Claims Process Warrant Immediate Attention (GAO-02-322),
February 2002.
11
  According to OHA, any hearing office employee who processes claims is calculated into the staffing
ratio. For purposes of calculating support staffing ratios, the only employees not included as “support
staff” are the Hearing Office Director, the Hearing Office Systems Administrator, and the Administrative
Assistant. These employees are not directly involved in processing cases and provide administrative
support to the entire office.



The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                      4
                                                    Table 1: National Staffing Levels and Staffing Ratios
                                                             at the End of Fiscal Years 1999 through 2004
   (1)     (2)                                                 (3)               (4)               (5)           (6)
 Fiscal Number of                                             Total           Full-Time      Permanent Staff   Staffing
  Year   Hearing                                            Full-Time        Permanent       Minus Full-Time    Ratio
         Offices                                         Permanent Staff        ALJs         Permanent ALJs
 1999      141                                                5,878             1,065            4,390         4.1 to 1
 2000      140                                                5,940             1,007            4,513         4.5 to 1
 2001      138                                                6,080               972            4,694         4.8 to 1
 2002      138                                                6,036             1,068            4,554         4.3 to 1
 2003      139                                                6,227             1,021            4,789         4.7 to 1
 2004      140                                                6,475             1,090            4,965         4.6 to 1
        AVERAGE                                               6,106             1,037            4,651         4.5 to 1
Table Notes:
   1. Column 5 - To determine the actual number of permanent staff involved in processing claims,
       OHA removes three administrative staff per each hearing office. OHA deems these three
       positions as purely administrative and not involved in processing claims.
   2. Column 6 - The staffing ratio is calculated by dividing column 5 by column 4.

Although the national staffing ratio has not varied greatly over the past 6 years, the
staffing ratio among the various hearing offices shows much greater variance. Our
review of end of FY 2003 staffing data shows that staffing ratios at the hearing offices
ranged from a low of 3 to 1 to a high of 18.5 to 1. In Figure 3 we provide an example
of the staffing ratio variance in the Atlanta Region (Region IV) at the end of FY 2003.
The range in staffing ratios among these hearing offices was a high of 6.7 to 1 to a low
of 3.9 to 1. We compared these staffing ratios to hearing office dispositions and
timeliness, and found that staffing, among other factors, may be a good indicator
regarding office productivity.

                                                     Figure 3: Staffing Ratio of Support Staff to ALJs
                                                                    in OHA's Region IV
                                           7
       Number of ALJs per Support Staff




                                          6.5

                                           6

                                          5.5

                                           5

                                          4.5

                                           4

                                          3.5

                                           3
                                                1    4   5    7   9   11 13 15 17 19 21 23 25 27 29 31
                                                                         Hearing Offices




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                                     5
Staffing Ratios and the Effect on National Dispositions

For FY 2003, OHA’s national disposition
rate was 2.35 dispositions per day per            Figure 4: FY 2003 Staffing Ratios and
ALJ. The disposition rate ranged from                             Dispositions
5.54 dispositions per day per ALJ at the                     63 Hearing Offices had Staffing Ratios
hearing office with the highest                              Above FY 2003 National Staffing Ratio
disposition rate, to 1.18 at the hearing
office with the lowest rate. Fifty-nine                  54 %
                                                                                            46%
                                                                                          A b o ve
                                                        B elo w
hearing offices had disposition rates                 N at io nal                        N at io nal
                                                                                       D isp o sit io n
equal to or better than the FY 2003                 D isp o sit io n
                                                        R at e                             R at e
national average disposition rate, while
80 hearing offices had disposition rates
worse than the national average.12
                                                          76 Hearing Offices had Staffing Ratios
Hearing offices with lower staffing ratios               Below FY 2003 National Staffing Average
had, on average, worse hearing office
disposition rates. Of the 76 hearing                                                         37%
offices with staffing ratios less than the                63%                              A bo v e
                                                                                         N a t io na l
                                                         B e lo w
FY 2003 national staffing ratio of 4.7 to              N a t io na l                   D is po s it io n

1, 63 percent had disposition rates                  D is po s it io n                      R ate
                                                          R ate
worse than the FY 2003 national
disposition rate (see Figure 4).

Staffing Ratios and the Effect on
National Timeliness

The national average processing time was 344 days in FY 2003. There was a large
range in timeliness among OHA’s 139 hearing offices. Average processing time ranged
from 142 days at the hearing office with the shortest processing time, to 525 days at the
hearing office with the longest processing time. Seventy-two hearing offices had
average processing times better than the FY 2003 national average processing time,
while 67 hearing offices had average processing times worse than the FY 2003 national
average.

Staffing ratios may be a good indicator for hearing office timeliness. Of the 63 hearing
offices with staffing ratios above the FY 2003 national staffing ratio of 4.7 to 1, more
than half (57 percent) had average processing times better than OHA’s FY 2003
national average processing time of 344 days (see Figure 5). Of the 76 hearing offices
with staffing ratios below 4.7 to 1, less than half (47 percent) had average processing
times better than 344 days.




12
     OHA had 139 hearing offices in FY 2003.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                      6
Fluctuating staffing levels make it
difficult for OHA to balance staffing           Figure 5: FY 2003 Staffing Ratios and
ratios in hearing offices. OHA must                          Timeliness
wait for a hearing office with a higher-
                                                     63 Hearing Offices with Staffing Ratios
than-average support staff ratio to                 Above FY 2003 National Staffing Average
lose an employee before another
employee can be hired in a hearing                   43%                             57%
                                                                                   B elo w
                                                   A bo ve
office that needs more support staff.             Natio nal                       Natio nal
                                                                                  A verage
OHA would be better able to manage                A verage
                                                                                P ro cessing
                                                P ro cessing
hearing office staffing if it had an                Time                            Time

ideal staffing ratio for its hearing
offices.
                                                    76 Hearing Offices with Staffing Ratios
                                                   Below FY 2003 National Staffing Average
To determine an ideal staffing ratio
                                                                      47%
for OHA hearing offices, SSA would            53%                     Below
                                             Above
need to conduct national                    National
                                                                     National
                                                                    Average
performance standards on the work           Average                Processing
                                           Processing
performed by hearing office support           Time
                                                                      Time

staff. Through its Unified
Measurement System initiative, SSA
has begun to track the work
expended by its operating components on ongoing workloads, tasks and projects.

According to SSA, phase 1 of the initiative’s appeals process seeks to create an
operational data store (ODS) that will provide workload control and standard reports for
the Agency's appeals workload and will also provide ad hoc query capabilities to the
new data store for knowledge workers throughout the Agency. This first phase of the
project is to conduct the detailed analysis needed to document the appeals business
process and to determine where (systematically) the work is being done. Upon
completion of phase 1, SSA anticipates having an ODS that will draw detailed data from
a number of sources and will provide an Agency view of the appeals workload.
Subsequent phases will provide detailed case listings, case level queries and
management information reports. We believe that this ongoing work could assist OHA
in creating an ideal staffing ratio, thereby allowing OHA managers to tie staffing
decisions into the performance measures.

CONTRACT FILE ASSEMBLY AND THE EFFECT ON DISPOSITIONS,
TIMELINESS AND STAFFING
One initiative that affects hearing office staffing ratios is the Contract File Assembly
initiative, implemented at the end of FY 2002. When HPI was implemented in
FY 2000, a large number of hearing office case technicians (CT) were promoted into




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                          7
the senior case technician position. After the CTs were promoted, the hearing offices
did not have enough staff to assemble13 the claims. Without sufficient staffing, claims
can not be heard by an ALJ and the number of pending claims increases. The
Contract File Assembly initiative allowed the use of contractors14 to assemble claims in
selected hearing offices. The intent was to lessen the number of pending claims
awaiting a hearing. According to OHA, contractors assembled over 40,000 files in both
FY 2003 and FY 2004.

OHA headquarters allocates funding for file assembly contracts to each of the OHA
regional offices. However, we could not find a clear relationship between regional
workloads and contractor funding. We compared the dollar value of the file assembly
contracts awarded and the number of cases assembled for each OHA regional office
with FY 2002 regional pending levels (see Table 2). For instance, the Chicago Region
had the second highest total number of pending claims, but received the fourth lowest
amount of funding for file assembly contracts and had the fourth fewest number of cases
assembled.

In another example, the Dallas Region received approximately $83,000 more in file
assembly contracts than the New York Region, but the New York Region had over
4,000 more pending claims than the Dallas Region. The San Francisco and
Philadelphia Regions received contract amounts much higher than the average while
their pending levels were much lower than the average. We performed similar analysis
using regional disposition rates, average processing times and receipts and found no
clear relationship among any of these variables with the amount of file assembly
contracts awarded to the regions.




13
  Assembling claims involves organizing all of the medical documents chronologically, arranging
documents in appropriate sections of the case file, numbering documents, identifying duplicate
documents, and ensuring all pertinent documents are appropriately labeled in a claim folder prior to
holding a hearing before an ALJ.
14
     For a description of the duties performed by file assembly contractors, see Appendix C.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                  8
          Table 2: File Assembly Contracts Awarded to Regional Offices
                            (Sorted by Pending Claims)
      OHA             End of FY 2002      File Assembly        Number of
 Regional Office     Pending Claims      Contract Amount Cases Assembled
    Denver                14,158             $ 58,000            1,250
    Seattle               16,270             $106,123            2,319
    Boston                23,550             $ 29,994              724
  Kansas City             26,012             $ 63,469            1,537
 San Francisco            32,642             $199,519            4,951
  Philadelphia            39,100             $155,371            4,199
     Dallas               63,113             $228,000            6,863
   New York               67,198             $145,300            2,796
    Chicago               75,954             $ 79,400            1,579
    Atlanta              132,912             $248,773            5,801
    Average               49,091             $131,395             3,202

Besides not finding a clear relationship between the contract award amounts and OHA
hearings key workload indicators, we also learned that OHA has not calculated what
effect file assembly contracts have had on hearing office staffing ratios or hearing office
performance for those hearing offices that received file assembly contracts.15 It is
important for OHA to measure this effect, because as we demonstrated earlier, the
majority of hearing offices with lower staffing ratios had lower productivity and worse
timeliness.16




15
  OHA was not able to provide us with the necessary data so that we could perform an independent
analysis to what effect file assembly contracts have had on hearing office staffing ratios or hearing office
performance.
16
  All of OHA’s file assembly contracts contained an expiration date of September 30, 2004. OHA
established 5 centralized File Assembly Units staffed with 63 Federal employees on October 1, 2004.
However, our observations are relevant to the allocation of contractor resources, regardless of the
structure to deliver those resources.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                     9
                                                    Conclusions and
                                                   Recommendations
Hearing office staffing levels rose more than 10 percent since FY 1999 and OHA
achieved a record national disposition rate in FY 2004. However, increased staffing
levels have not been as effective in decreasing national average processing time.
Staffing ratios may be a good indicator for hearing office disposition rates and
timeliness, especially in hearing offices with low staffing ratios. In most hearing offices
with below average staffing ratios, disposition rates were below national averages and
average processing times were above national averages. National performance
standards for the work performed by hearing office support staff could help OHA
management determine an ideal staffing ratio. Furthermore, it does not appear OHA
awarded file assembly contracts based on any of the hearings key workload indicators,
nor could we find any evidence OHA determined the effect that the additional human
resources (file assembly contractors) have had on staffing ratios, disposition rates or
average processing time for hearing offices that had received file assembly contracts.

RECOMMENDATIONS
To improve overall staffing at the hearing offices and assist OHA in meeting its
performance goals, we recommend SSA:

1. Consider developing an ideal national staffing ratio to assist OHA in allocating staff to
   hearing offices; and

2. Consider prioritizing file assembly assistance for those hearing offices that have
   staffing ratios below the national staffing ratio.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                    10
                                            Appendices




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)
                                                                        Appendix A

Acronyms
 AA                Attorney Advisor
 ALJ               Administrative Law Judge
 CHR               Contact Hearing Reporter
 CIA               Case Intake Assistant
 CPMS              Case Processing and Management System
 CT                Case Technician
 eDIB              Electronic Disability Project
 FTP               Full-Time Permanent
 FY                Fiscal Year
 GAO               Government Accountability Office
 GS                Group Supervisor
 HOCALJ            Hearing Office Chief Administrative Law Judge
 HOD               Hearing Office Director
 HOSA              Hearing Office System Administrator
 HPI               Hearing Process Improvement
 LCT               Lead Case Technician
 ME                Medical Expert
 MSPB              Merit Systems Protection Board
 ODS               Operational Data Store
 OHA               Office of Hearings and Appeals
 OIG               Office of the Inspector General
 OPM               Office of Personnel Management
 OQA               Office of Quality Assurance and Performance Assessment
 OTR               On-the-Record
 PA                Paralegal Analyst
 SSA               Social Security Administration
 SCT               Senior Case Technician
 STI               Short-Term Initiative
 VE                Vocational Expert




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)
                                                                                Appendix B

Scope and Methodology
To meet the objective of this audit, we:

•   Reviewed Office of Hearings and Appeals (OHA) policies and procedures.

•   Reviewed Office of the Inspector General reports, Government Accountability Office
    reports and testimony, Social Security Advisory Board reports, OHA Quarterly,
    Annual and Key Workload Indicator reports, and the Social Security Administration’s
    (SSA) Accountability and Performance Reports.

•   Used OHA’s bi-weekly staffing reports to determine hearing office staffing ratios and
    end of the year national staffing ratios.

•   Obtained hearing office performance data from OHA’s National Ranking Report1 and
    compared hearing office productivity and timeliness measures with end of the Fiscal
    Year 2003 hearing office staffing ratios.

•   Assembled hearing office position descriptions based on available documentation
    and our understanding of the hearing process.

•   Examined the distribution of OHA’s file assembly contracts, by comparing the
    contract awards with regional disposition rates, average processing times, case
    receipt levels, and pending case levels.

•   Conducted interviews with OHA headquarter executives and staff and regional office
    management staff to ensure the accuracy of the information presented.

•   Documented the status of OHA’s other short-term initiatives that were designed to
    improve the hearing process.

We did not assess internal controls or the reliability of workforce data provided from
OHA’s systems. The entity audited was OHA within the Office of the Deputy
Commissioner for Disability and Income Security Programs. We conducted our audit
from March 2004 to October 2004 in accordance with generally accepted government
auditing standards.



1
 OHA’s National Ranking Reports contain monthly and yearly performance data for every hearing office.
We did not independently audit the performance data found in the National Ranking Reports.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)
                                                                                                                  Appendix C

Hearing Office Organization Chart and Position
Descriptions

                                 MEDIUM-SIZE HEARING OFFICE
                                  ORGANIZATION STRUCTURE
                                                       HOCALJ
                  ALJ        ALJ       ALJ                                          ALJ         ALJ        ALJ




                                                    Hearing Office
                                                      Director



                                                        Group
           Non-SSA Employees
                                                      Supervisor
           Claimant Representatives
           File Assembly Contractors
           Hearing Reporters
           Interpreters
           Medical Experts                       Lead Case Technician
           Vocational Experts                    Senior Case Technicians          Attorney Advisers
                                                 Case Technicians                 Paralegal Analysts



                                                                          Hearing Office Systems Administrator
           Receptionist
                                             = Management                              Administrative Assistant
           Case Intake Analyst
                                             = Bargaining Unit Position
           Contact Representative
                                             = Non-bargaining Position




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                                     C-1
HEARING OFFICE POSITION DESCRIPTIONS

Title                                 Position Description
Hearing Office Chief                  The HOCALJ is directly responsible for all program
Administrative Law Judge              and administrative matters concerning the Social
(HOCALJ)                              Security Administration’s (SSA) hearing process in
                                      the hearing office. The HOCALJ is the first line
                                      supervisor to Administrative Law Judges, the
                                      Supervisory Staff Attorney and the Hearing Office
                                      Director. The HOCALJ has full responsibility and full
                                      authority to hold hearings and issue decisions made
                                      in the course of administration of Titles II, XVI and
                                      XVIII of the Social Security Act.
Administrative Law Judge (ALJ)        The ALJ holds hearings and makes and issues
                                      decisions on appeals from determinations made in
                                      the course of administration of Titles II, XVI and XVIII
                                      of the Social Security Act.
Hearing Office Director (HOD)         The HOD serves as the principal management
                                      adviser to the HOCALJ and participates significantly
                                      with the HOCALJ in the overall management and
                                      administration of the hearing office. The HOD
                                      supervises, plans, organizes and controls operating
                                      activities in a hearing office.
Group Supervisor (GS)                 The GS is the first line supervisor of the Attorney
                                      Advisor, the Paralegal Analyst, the Lead Case
                                      Technician, the Senior Case Technician, and the
                                      Case Technician. The GS directs all of the activities
                                      of employees assigned to the group to ensure the
                                      efficient, timely and legally sufficient processing of
                                      the hearing office cases.
Attorney Adviser (AA)                 The AA renders advice and assistance to the ALJ in
                                      pre-hearing development and preparation of cases
                                      for hearing, post-hearing development and other
                                      post-hearing actions. The AA analyzes, researches
                                      and develops cases, and formulates and drafts
                                      comprehensive decisions for the ALJ.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                     C-2
Paralegal Analyst (PA)                The PA assists the ALJ in the formulation of the case
                                      decision. The PA evaluates all program, legal and
                                      medical aspects of the case including exhibits, all
                                      testimony, all pertinent laws and regulations and
                                      precedent court cases.
Lead Case Technician (LCT)            The LCT is responsible for leading the work of three
                                      or more employees engaged in developing and
                                      processing a request for hearing from its receipt in
                                      the hearing office to its completion. The LCT
                                      processes more complex hearing cases where
                                      analysis of pertinent issues and interpretation of the
                                      provisions of laws, regulations, rulings, precedents,
                                      policies, procedures and guidelines relative to the
                                      case is necessary.
Senior Case Technician (SCT)          The SCT duties consist of processing more complex
                                      hearing cases. The SCT prepares case summaries
                                      by outlining, in narrative form, information from all
                                      documents which reflect the prior medical history of
                                      the claimant and treatment undertaken, and any
                                      conflicting medical evidence.
Case Technician (CT)                  The CT reviews and analyzes a wide variety of
                                      medical and legal documentation, records and
                                      evidence to ensure that case files are received and
                                      developed in accordance with legal and regulatory
                                      authorities. The CT also schedules cases for
                                      hearing in accordance with legal and regulatory
                                      requirements and coordinates time and date of the
                                      hearing with claimants, representatives, expert
                                      witnesses, and hearing reporters.
Hearing Office System                 The HOSA installs, configures, upgrades and
Administrator (HOSA)                  troubleshoots hearing office information technology
                                      hardware and software. The HOSA serves as the
                                      focal point in the ongoing support of information
                                      technology initiatives.
Administrative Assistant              The administrative assistant is responsible for
                                      providing day-to-day administrative management
                                      services essential for the operation of the hearing
                                      office. These services include aspects of budget
                                      execution and formulation, personnel administration,
                                      procurement and supply, contract administration,
                                      travel, payroll services, and reports management.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                   C-3
Case Intake Assistant (CIA)              This is a specialized case assistant position, in that a
                                         majority of the work involves Master Docket1 duties.
                                         The CIA is responsible for developing and
                                         processing a case from its receipt in the office to its
                                         completion. The CIA reviews and analyzes the case
                                         to ensure sufficiency of evidence and to ensure that
                                         the case is ready to hear. Also, the CIA contacts the
                                         claimant to secure current evidence of record.
Receptionist                             The receptionist provides information in person
                                         and/or over the telephone, in response to inquiries
                                         concerning the general responsibilities, functions,
                                         program activities and personnel of the hearing office
                                         as well as performing other general clerical activities.
Contact Representative                   The contact representative is responsible for
                                         dispensing information to the public, in person or by
                                         telephone, explaining the legal provisions,
                                         regulations and procedural requirements for
                                         obtaining benefits under the Social Security program
                                         as they relate to a specific case, and explaining the
                                         application of regulatory provision and the bases for
                                         the Agency’s determinations in individual cases.




1
  OHA’s hearing offices maintain a Master Docket system which contains all requests for hearings and
remanded claims.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                              C-4
HEARING OFFICE ROLES AND RESPONSIBILITIES OF NON-SSA
EMPLOYEES

Title              Roles and Responsibilities
Claimant           A claimant representative is an individual whom the claimant appoints
Representative     to act on his/her behalf in pursuing his/her claim or asserted rights
                   before SSA. The claimant representative may, on behalf of the
                   claimant:
                       • Obtain information about the claim that SSA would generally
                           provide the claimant;
                       • Examine any documents to which the claimant would have
                           access;
                       • Appear at any interview or hearing, either alone or with the
                           claimant;
                       • Submit evidence;
                       • Be informed of all additional evidence needed to support the
                           claim;
                       • Make statements about facts and law;
                       • Make any request or give any report or notice about the
                           proceedings before SSA; and
                       • Be notified of any decision made in the claim, including, if
                           applicable, decisions regarding auxiliary beneficiaries.
Contract File      SSA requires the contractor to provide folder assembly services. The
Assembly           contractor:
                       • Reviews the case files to ensure all jurisdictional exhibits are
                           in the file;
                       • Organizes the documents to be included in the exhibits;
                       • Rubber stamps each page of the exhibit with the word “Exhibit”
                           in black ink; and
                       • Prepares the Exhibit list on either a government computer, or
                           by hand on a pre-printed sheet.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                C-5
Contract           SSA is phasing in the use of digital recording of hearings and phasing
Hearing            out the use of analog (audiocassette) recording. During the phase-
Reporters          in/phase-out process, CHRs will be expected to be able to use both
(CHR)              analog and digital recording equipment.

                   The CHR’s duties are to:
                       • Be present at the designated hearing site on the date and time
                           specified;
                       • Set up and test the recording equipment;
                       • Record the proper identification information on the hearing
                           cassette tape;
                       • During the hearing, monitor the recording equipment to ensure
                           that it is functioning properly and that a verbatim record of the
                           hearing proceedings is made on the cassette tape;
                       • Take notes of hearing testimony, ensuring that ALJ directives
                           pertaining to additional evidence and other needed documents
                           are noted; and
                       • After the hearing, place cassette recording in cassette storage
                           envelope and place with notes in a designated area in the
                           hearing room.
Interpreters       SSA provides interpreter services at no cost to assist non-English
                   speaking claimants who have difficulty understanding or
                   communicating in English during any part of the hearing process. The
                   interpreter must accurately interpret each word spoken during the
                   hearing from English to the foreign language for the claimant and, as
                   the claimant answers, the interpreter listens and renders the English
                   version.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                   C-6
Medical            An ALJ may need to obtain an ME’s opinion, either in testimony or at
Experts (ME)       a hearing or in responses to written interrogatories, when:
                      • The ALJ is determining whether a claimant’s impairment(s)
                          meets or equals a listed impairment(s);
                      • The ALJ is determining usual dosage and effect of drugs and
                          other forms of therapy;
                      • The ALJ is assessing a claimant’s failure to follow prescribed
                          treatment;
                      • The ALJ is determining the degree of severity of a claimant’s
                          mental impairment;
                      • The claimant or the claimant’s representative has requested
                          the presence of an ME at the hearing and the ALJ agrees that
                          ME testimony is necessary;
                      • The ALJ has doubt about the adequacy of the medical record
                          in a case, and believes that an ME may be able to suggest
                          additional relevant evidence;
                      • The medical evidence is conflicting or confusing, and the ALJ
                          believes an ME may be able to clarify the evidence;
                      • The significance of clinical or laboratory findings in the record
                          is not clear, and the ALJ believes an ME may be able to
                          explain the findings and assist the ALJ in assessing their
                          clinical significance;
                      • The ALJ is determining the claimant’s residual functional
                          capacity, e.g., the ALJ may ask the ME to explain or clarify the
                          claimant’s functional limitations and abilities as established by
                          the medical evidence of record; or
                      • The ALJ desires expert medical opinion regarding the onset of
                          an impairment.

                   The ALJ must obtain an ME’s opinion, either in testimony at a hearing
                   or in responses to written interrogatories, when the Appeals Council
                   or a court so orders. In addition, the ALJ must use an ME to evaluate
                   and interpret background medical test data.
Vocational         An ALJ may need to obtain a VE’s opinion, either in testimony at a
Experts (VE)       hearing or in written responses to interrogatories when:
                       • The ALJ is determining whether the claimant’s impairment(s)
                           prevents the performance of past relevant work; or
                       • The ALJ is determining whether the claimant’s impairment(s)
                           prevents the performance of any other work and he or she
                           cannot decide the case.

                   The ALJ must obtain a VE’s opinion, either in testimony at a hearing
                   or in responses to written interrogatories, when directed by the
                   Appeals Council or a court.



The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                   C-7
                                                                                     Appendix D

Other Initiatives for Improving Hearing
Workloads
1990’s Initiatives
In the mid 1990’s, the Social Security Administration’s (SSA) pending cases in its
hearing offices reached crisis-levels. SSA introduced a number of temporary initiatives
designed to reduce the Office of Hearings and Appeal’s (OHA) pending cases. These
temporary initiatives introduced new procedures and reallocated staff. Among the most
long-standing of these initiatives was the Senior Attorney Program.

    •   Senior Attorney Program

        Under the Senior Attorney Program, selected attorneys reviewed claims to
        identify those cases in which the evidence already in the case fully supported a
        fully favorable decision. Senior attorneys had the authority to approve these
        claims without Administrative Law Judge (ALJ) involvement. This program took
        effect in Fiscal Year (FY) 1995 and was phased out in 2000. During its
        existence, the program succeeded in reducing the backlog of pending disability
        cases by issuing 200,000 hearing-level decisions. However, findings on the
        accuracy of Senior Attorney decisions were mixed. One SSA study concluded
        that the quality of decisions made by Senior Attorneys generally increased over
        the period of the initiative, though falling short of the quality of the decisions
        made by the ALJs.1 A second SSA study indicated that the quality of the
        decisions made by senior attorneys is comparable to those made by ALJs.2 SSA
        management decided that the Senior Attorney Program was a poor allocation of
        resources as it diverted attorneys from processing more difficult cases to process
        the easier cases.




1
 SSA’s Office of Quality Assurance and Performance Assessment (OQA) reviewed about 1,800 Senior
Attorney decisions issued from fiscal years 1995 through 2000. OQA’s assessment is based on analysis
conducted by ALJs who were temporarily detailed to the Disability Hearings Quality Review Process.
2
  This study was done by the Appeals Council, which routinely reviews unappealed decisions as part of
the Pre-Effectuation Review. The Pre-Effectuation Review consists of cases OQA had identified requiring
corrective action. In July 1999, the Appeals Council reported data it had collected from its review of 1,055
unappealed Senior Attorney decisions and 833 favorable on-the-record ALJ decisions issued between
August 8, 1995 and July 14, 1999.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                  D-1
2000 Initiative
The Hearing Process Improvement (HPI) initiative was implemented in 2000. It was
designed to make OHA hearing offices more productive by reducing the amount of
processing time for hearings.3
    •   Hearing Process Improvement
        HPI included the establishment of new positions, workgroups, new and enhanced
        reports, and features such as development and locator calendars and
        benchmarks for how long cases should stay at each step of the process. A major
        change was the establishment of processing groups into manageable, self-
        contained working units. After HPI was implemented, processing time slowed
        and the number of pending claims increased rapidly. A Government
        Accountability Office study4 concluded that HPI failed because SSA implemented
        large-scale changes too quickly without resolving known problems. The
        problems included process delays, poorly timed and insufficient training, and the
        absence of important automated functions.


2002 Initiatives
OHA implemented eight Short-Term Initiatives (STI) late in FY 2002 to improve the
hearing process.

The first two STIs centered on hearing office processes:

    •   Contract File Assembly 5

        In the Contract File Assembly initiative, contractors assemble case folders to
        assist hearing offices in preparing pending cases for Administrative Law Judges
        (ALJ) to schedule hearings. Contractors assembled over 40,000 files in both FY
        2003 and FY 2004.

    •   Ending Rotational Assignments

        OHA Ended Rotational Assignments among certain clerical functions that was
        implemented during the HPI initiative. This action allows support staff to
        concentrate on their case preparation duties.

3
 For further information, see the SSA Office of the Inspector General (OIG) report Assessment of the
Hearing Process Improvement Plan Phase 1 (A-06-00-20051), June 2001.
4
  Government Accountability Office, Social Security Disability – Disappointing Results From SSA’s Efforts
to Improve the Disability Claims Process Warrant Immediate Attention (GAO-02-322), February 2002.
5
 SSA OIG, Congressional Response Report: Review of File Assembly Contracts at Office of Hearings
and Appeals (A-07-04-24076), March 2004.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                  D-2
These next six STIs were designed to expedite the decision-making process and reduce
processing time.

    •   Early Case Screening and Analysis by Administrative Law Judge

        In Early Case Screening, ALJs examine unassembled cases from the Master
        Docket6 and may issue immediate on-the-record7 favorable decisions. Screening
        helps eliminate standard delays and additional expense associated with holding
        a hearing. Screening also helps identify cases that need further development
        which helps move the cases along at an earlier stage. In FY 2003, ALJs
        screened about 66,000 cases and issued favorable decisions to approximately
        21,600 claimants, and screened 70,781 cases resulting in over 25,000 on-the-
        record decisions in FY 2004.

    •   Short Form Software for Fully Favorable Decisions

        OHA’s hearing offices use standardized software to allow ALJs to create fully
        favorable decisions. In FY 2003, ALJs wrote over 23,600 decisions and
        18,750 decisions in FY 2004 using the Short Form Software for Fully Favorable
        Decisions, which reduced handoffs and further delays.

    •   Bench Decisions

        In Bench Decisions, an ALJ issues a decision as soon as the hearing is over.
        ALJs issued over 1,100 favorable decisions from the bench in FY 2003, and
        issued 3,350 decisions in FY 2004.

    •   Expanding Video Hearings

        Video Hearings enhances OHA’s ability to expeditiously schedule hearings in
        remote8 sites. In FY 2003, OHA prepared and published final regulatory
        changes, which permit OHA to schedule video hearings without obtaining
        advance consent from the claimant. At the end of FY 2003, OHA had video
        hearing equipment in 35 sites. The total number of fully operational video
        hearing sites was 162 at the end of FY 2004.


6
  OHA’s hearing offices maintain a Master Docket system which contains all requests for hearings and
remanded claims.
7
  On-the-Record (OTR) decisions are when the ALJ reviews a claim prior to a hearing and decides that
there is enough evidence to render a favorable decision. Claims decided OTR eliminate the standard
delays associated with holding a hearing.
8
 Remote sites are locations where hearings are held, other than the main hearing office. For instance,
ALJs in the Charlottesville, Virginia hearing office use the video teleconference to hear cases from the
Lewisburg, West Virginia remote site.



The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                 D-3
    •   Dragon Naturally Speaking, Speech Recognition Software

        Dragon Naturally Speaking, Speech Recognition Software assists ALJs and
        support staff with drafting decisions. In FY 2003, OHA distributed the software to
        more than 1,000 decision writers and ALJs.

    •   Digitally Recording Hearings

        Digitally Recording Hearings is a new method of recording hearings that replaces
        OHA’s aging audiocassette recorders with notebook computers. The notebooks
        have state-of-the-art software to record hearing proceedings in a digital file that
        can be stored on a hard drive, a local server and in the electronic folder. The
        entire digital recording rollout is expected to be completed early in 2006.

2004 Initiatives

    •   Case Processing and Management System

        OHA implemented the Case Processing and Management System (CPMS) in all
        10 Regions in FY 2004. CPMS is OHA’s new case tracking system and a critical
        component of the Agency’s Electronic Disability Project (eDib).9 CPMS provides
        users in OHA hearing offices with a system to control, process and produce
        management information on disability hearings. CPMS includes the following
        functions: initiative appeals, case receipt, case development, ALJ review,
        scheduling features, information about hearings, case closing and management
        information.

    •   Centralized Screening Unit

        At the beginning of the third quarter of FY 2004, OHA established an early case
        screening program at OHA Headquarters, which was authorized by the
        Commissioner during the second quarter of FY 2004. Employees in the
        Centralized Screening Unit screened cases from across the country for on-the-
        record decisions, with priority consideration given to hearing offices with receipts
        and pending levels above the national average and support staff levels below the
        national average. The objective of the Unit is to expedite the decision-making
        process and reduce the pending levels in the hearing offices. Through the end of
        the third quarter of FY 2004, the Centralized Screening Unit received over
        2,500 cases and screened approximately 1,484 cases. Of the cases screened,
        463 (29 percent) received fully favorable decisions.




9
 SSA’s eDIB project is the transition from paper to electronic processing for disability claims. eDIB
consists of a series of interrelated projects designed to move all partners in disability claims
adjudication/review to a paperless business process through the use of an electronic disability folder.


The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                                     D-4
                                                                        Appendix E
Agency Comments




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)
                                         SOCIAL SECURITY

MEMORANDUM                                                                         34065-24-1216


Date:       March 18, 2005                                                         Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Acting Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report "The Effects of Staffing on Hearing
            Office Performance" (A-12-04-14098)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                     E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “THE EFFECT OF STAFFING ON HEARING OFFICE PERFORMANCE”
(A-12-04-14098)

Thank you for the opportunity to review and comment on the draft report. We are in
general agreement with the findings and conclusions presented in the report. In fact,
we have already considered and implemented many of the principles presented.

Our responses to the specific recommendations as follows.

Recommendation 1

Consider developing an ideal national staffing ratio to assist the Office of Hearings and
Appeals (OHA) in allocating staff to hearing offices.

Response

We agree in part with the stated recommendation. A national staffing ratio may provide
a guideline for allocating staff; however, as the report acknowledges, factors other than
staffing ratios also influence performance and must be considered in allocating staff.
Resources should be distributed to the offices where they will be the most productive;
simply distributing the resources so that all offices have a similar staffing ratio, as
suggested by the audit recommendation, would not be as productive.

Recommendation 2

Consider prioritizing file assembly assistance for those hearing offices that have staffing
ratios below the national staffing ratio.

Response

We agree. OHA has stopped the practice of using contractors to prepare cases for
hearings. Instead, OHA has established five permanent file assembly units (in Regions
2, 4, 6, 7 and 8) staffed by 60 external new-hires that will provide support to hearing
offices needing assistance with the file assembly process. These file assembly units
operate independently of the hearing offices. Each Regional Office is given an
allocation of cases to be sent to the file assembly units which it may allocate to its
hearing offices as deemed appropriate. To date, these units have been successful,
achieving their first quarter goals.


[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)                E-2
                                                                        Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
Walter Bayer, Director (215) 597-4080

Michael Maloney, Audit Manager, (703) 578-8844


Acknowledgments

In addition to those named above:

   Nicholas Milanek, Auditor-in-Charge

   Brennan Kraje, Statistician

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-04-14098.




The Effects of Staffing on Hearing Office Performance (A-12-04-14098)
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
